<html>
<title> - WHITE HOUSE INSIDER MARK MIDDLETON: HIS TIES TO JOHN HUANG, CHARLIE TRIE, AND OTHER CAMPAIGN FINANCE FIGURES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  WHITE HOUSE INSIDER MARK MIDDLETON: HIS TIES TO JOHN HUANG, CHARLIE 
                TRIE, AND OTHER CAMPAIGN FINANCE FIGURES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 5, 1999

                               __________

                           Serial No. 106-93

                               __________

       Printed for the use of the Committee on Government Reform


                               <snowflake>



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-044 CC                   WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 5, 1999...................................     1

Letters, statements, et cetera, submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        DNC document.............................................    22
        Exhibits.................................................    86
        Letter dated May 7, 1999.................................    57
        Majority staff report....................................     3
        Prepared statement of....................................    24
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................    52
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................    44
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Documents relevant to hearing............................    78
        Letter dated August 3, 1999..............................    29



  WHITE HOUSE INSIDER MARK MIDDLETON: HIS TIES TO JOHN HUANG, CHARLIE 
                TRIE, AND OTHER CAMPAIGN FINANCE FIGURES

                              ----------                              


                        THURSDAY, AUGUST 5, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:10 a.m., in 
room 2157, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Shays, 
McHugh, Horn, Mica, Scarborough, Barr, Miller, Hutchinson, 
Biggert, Ryan, Chenoweth, Waxman, and Norton.
    Staff present: Kevin Binger, staff director; Barbara 
Comstock, chief counsel; James Wilson, chief investigative 
counsel; David Kass, deputy counsel and parliamentarian; Marc 
Chretien, senior investigative counsel; Mark Corallo, director 
of communications; Kristi Remington and John (Timothy) Griffin, 
senior counsels; John Mastranadi, investigator; Michelle White, 
counsel; John Williams, deputy communications director; Corinne 
Zaccagnini, systems administrator; Carla J. Martin, chief 
clerk; Lisa Smith-Arafune, deputy chief clerk; Robin Butler, 
office manager; Kim Reed, staff assistant; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Michael Raphael, minority counsel; Ellen Rayner, minority chief 
clerk; Earley Green, minority staff assistant; Andrew Su, 
minority research assistant; and Lawrence J. Halloran, staff 
director/counsel, Subcommittee on National Security, Veterans 
Affairs, and International Relations.
    Mr. Burton. The Committee on Government Reform will come to 
order. Good morning. A quorum being present, the Committee on 
Government Reform will conduct its scheduled business today, 
but before the distinguished ranking member and I deliver our 
opening statements, the committee must first dispose of some 
procedural issues.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record. Without objection so ordered.
    I ask unanimous consent that one staff report and 
compilation of exhibits regarding this hearing be included in 
the record. Without objection so ordered.
    [Note.--The exhibits referred to may be found at the end of 
the hearing.]
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.001
    
    [GRAPHIC] [TIFF OMITTED] T3044.002
    
    [GRAPHIC] [TIFF OMITTED] T3044.003
    
    [GRAPHIC] [TIFF OMITTED] T3044.004
    
    [GRAPHIC] [TIFF OMITTED] T3044.005
    
    [GRAPHIC] [TIFF OMITTED] T3044.006
    
    [GRAPHIC] [TIFF OMITTED] T3044.007
    
    [GRAPHIC] [TIFF OMITTED] T3044.008
    
    [GRAPHIC] [TIFF OMITTED] T3044.009
    
    [GRAPHIC] [TIFF OMITTED] T3044.010
    
    [GRAPHIC] [TIFF OMITTED] T3044.011
    
    [GRAPHIC] [TIFF OMITTED] T3044.012
    
    [GRAPHIC] [TIFF OMITTED] T3044.013
    
    [GRAPHIC] [TIFF OMITTED] T3044.014
    
    [GRAPHIC] [TIFF OMITTED] T3044.015
    
    Mr. Burton. Finally, I ask unanimous consent that 
questioning in the matter under consideration proceed under 
clause 2(j)(2) of House rule 11 and committee rule 14, in which 
the chairman and ranking minority member allocate time to 
committee members as they deem appropriate for extended 
questioning not to exceed 60 minutes, divided equally between 
the majority and minority.
    Mr. Waxman. Reserving the right to object. If I might 
inquire of the Chair, you're suggesting we proceed 30 minutes 
on each side in questioning?
    Mr. Burton. Yes, that's correct.
    Mr. Waxman. Would that be questioning by members of the 
committee or staff?
    Mr. Burton. We were considering having members of the staff 
question Mr. Middleton, but because we sensed there might be 
some objection on your side, we decided to do it with just 
Members because we wanted to accommodate you.
    Mr. Waxman. Then I withdraw my reservation.
    Mr. Burton. Without objection, so ordered.
    A couple of months ago we had Johnny Chung testify before 
this committee. Up until that time, he was 1 of 121 people who 
had refused to testify about illegal fundraising. At the time I 
felt we turned a corner. I felt like we were finally chipping 
away at the big stonewall, and we were going to see what was on 
the other side. The Justice Department actually agreed to have 
him testify. It was the first real cooperation we had from the 
Justice Department and Janet Reno in over 2 years.
    What Johnny Chung told us was eye-opening. He testified 
that the head of China's military intelligence agency, General 
Ji Shengde, gave him $300,000 to help President Clinton's 
campaign. This is what General Ji said, according to Johnny 
Chung ``We really like your President. We hope he'll be re-
elected. We'll give you 300,000 U.S. Dollars, and you can give 
it to your President and the Democratic party.''
    His bank records and his passport stamps have been checked 
and backed up his story. As a witness, he was very credible. 
After the hearing he shook my hand and said, ``Mr. Chairman, 1 
down and 120 to go.'' He made it sound easy. But as we started 
to followup on some of the things Johnny Chung told us, it 
became obvious that not very much had changed. Johnny Chung 
told us that an official at the United States Embassy in 
Beijing was accepting cash and gifts in exchange for visas. 
Chung told us that he saw an Embassy employee, Mr. Charles 
Parish, receive a paper bag filled with cash and Chinese 
passports from the head of the Haomen Beer Co. Chung said Mr. 
Parish approved 25 to 30 visas for his Chinese business 
associates, and at the same time he asked Chung for more than 
$700,000. As a matter of fact, he said he demanded that money.
    I called Mr. Parish before the committee. Once again, 
unfortunately, he took the fifth amendment. He wouldn't answer 
a single question. So much for witness cooperation. We then 
tried to question the State Department Inspector General about 
her investigation of Mr. Parish. The day before the hearing, 
the State Department Inspector General got a call from the 
Justice Department. The Justice Department told her not to talk 
to us, not to answer any of our questions. So much for 
cooperation from the Justice Department.
    Here is another thing Johnny Chung told us. He said an 
influential Chinese banker informed him that Charlie Trie had 
asked the Chinese Government for $1 million to help President 
Clinton. We've been trying to talk to Charlie Trie for more 
than 2\1/2\ years without success. We have a list of people who 
have refused to cooperate, up to 122 since last week. A lot of 
those people have taken the fifth. A lot of those people have 
fled the country. Charlie Trie is one of those rare people who 
did both, fled the country and took the fifth. He hid in China 
for over a year. Then he came back, and he took the fifth.
    We would really like to know if Charlie Trie asked the 
Chinese Government for $1 million. We would really like to know 
what the Chinese Government or an agent of the Chinese 
Government gave to him.
    Charlie Trie reached a plea agreement with the Justice 
Department early this summer. He's supposed to be cooperating 
with them. Well, I know he's not cooperating with us. Press 
reports have suggested that he's not helping the Justice 
Department very much either. Yet he's getting a very, very 
light sentence, 3 years probation. Here is a man who had his 
name on a tremendous number of those illegal campaign 
contribution documents, and he's getting a 3-year probationary 
sentence. That is it. No jail time. No fine. Not even community 
service.
    Despite the fact that he just pled guilty in June, they 
were rushing ahead with an early sentencing date in August. I 
wrote to the judge who is supervising the case. I asked him to 
postpone Charlie Trie's sentencing until after he has given his 
full cooperation to the U.S. Congress. Given the light sentence 
Charlie Trie is getting, I thought it was a pretty reasonable 
request. Fortunately, the judge did postpone Charlie Trie's 
sentencing, but once again the Justice Department is fighting 
us tooth and nail. Why don't they want Charlie Trie to talk to 
Congress? What are they afraid of? Who are they protecting? 
Don't the Congress of the United States and the American people 
have a right to know what happened?
    I also wrote to the Federal judge supervising John Huang's 
case. Once again, the Justice Department was rushing ahead to 
sentence John Huang. He promised to cooperate in exchange for 
another light sentence: 500 hours of community service and a 
$10,000 fine. John Huang and Charlie Trie's names were 
connected to the vast majority of illegal campaign 
contributions that went to the DNC, several million dollars, 
most of it from overseas, from foreign sources. Yet they are 
both getting nothing more than a slap on the wrist, and Justice 
does not want us to talk to them.
    Well, John Huang hasn't cooperated with Congress. Is he 
giving up anything of value in exchange for his light sentence, 
or is this just one more sweetheart deal? If he won't talk to 
Congress, we'll probably never know. The Justice Department 
wanted to have John Huang sentenced this week, rushing to 
judgment once again. However, the judge agreed to postpone his 
sentencing over the objections of the Justice Department 
because I believe he thinks that maybe Huang should cooperate 
with the Congress and talk to us. So much for the cooperation 
from Janet Reno. She's trying to block us at every single turn.
    What else did Johnny Chung tell us? He told us about the 
gentleman we will be talking to today, Mr. Mark Middleton. He 
told us that he was nervous about accepting all this money from 
a Chinese general, the head of their military intelligence 
agency, Mr. Ji, General Ji, who was the equivalent of the head 
of our CIA. He told his friend Liu Chao-Ying that he did not 
want to take the money. Remember, Liu Chao-Ying is the daughter 
of one of the most powerful generals in the People's Liberation 
Army. At one time he was the head of the People's Liberation 
Army. She is a lieutenant colonel in the People's Liberation 
Army. Liu Chao-Ying told him not to worry because they were 
working with other people, too. According to Johnny Chung, she 
said that Mark Middleton got a half a million dollars through a 
group in Singapore to do good things for China.
    Mark Middleton is here today. He is a former senior White 
House aide from Arkansas. He was a close friend of the 
President. He was the Special Assistant to the President and 
Assistant to the Chief of Staff. For the last 2\1/2\ years, he 
has not cooperated with this committee's investigation in any 
way. Did Mark Middleton know Liu Chao-Ying? We don't know. Was 
he working with the Chinese Government or other foreign sources 
to arrange campaign contributions? We don't know. Did Mark 
Middleton get a half a million dollars to do good things for 
China? We don't know.
    We have asked Mr. Middleton to come in and talk with us. We 
have asked him to respond to all the allegations that have been 
raised about him. We have not been able to convince him to tell 
us his side of the story. His lawyer tells us that he is going 
to assert his fifth amendment rights and not answer any of our 
questions today.
    I want to note that we have an opinion from the nonpartisan 
Congressional Research Service that indicates that Mr. 
Middleton may have effectively waived his fifth amendment 
rights under DC law. We are going to be looking into this 
further. However, I think it's unfortunate that we are in this 
situation to begin with. Mark Middleton was a White House aide. 
The taxpayers paid his salary. For him to say he is going to 
take the fifth amendment and not cooperate with the 
congressional investigation is more than unseemly.
    More than 2 years ago the President told the American 
people that everyone would cooperate. I remember Chuck Ruff 
came to my office and said we would have full cooperation from 
the White House, and we have not had any. What happened to that 
pledge? Mr. Middleton's lawyer tells us that he has given his 
complete cooperation to the Justice Department. He tells us 
that Mr. Middleton has done nothing wrong, but we do not know, 
and we cannot count on the Justice Department.
    Mr. Middleton, if you have not done anything wrong, why not 
speak up today and say so? If you cooperated with the Justice 
Department, why won't you cooperate with the Congress of the 
United States?
    The more we learn about the Justice Department, the more it 
looks like a hollow investigation. We recently learned that the 
Attorney General's staff stopped the FBI from serving a search 
warrant on Charlie Trie's assistant while she was destroying 
documents in Little Rock, AR. Think about that. The FBI knew 
that those documents were being shredded or destroyed by Ms. 
Mapili, Charlie Trie's assistant. They went down to Little Rock 
to get a search warrant and to serve the warrant and to get 
those documents. They were called back by Janet Reno and the 
Justice Department. For 3 months they didn't get those 
documents. How many were destroyed in the interim, and why 
didn't they serve that search warrant? The FBI tells us it is 
because the Attorney General said there was not probable cause, 
and yet they saw this lady destroying documents. If that isn't 
probable cause, I don't know what is. The appearance that the 
Justice Department is obstructing the investigation of Charlie 
Trie, or was, is pretty clear to me. They let her continue to 
destroy documents for 3 more months.
    The Justice Department got Johnny Chung's Hong Kong bank 
records 2 years ago. Two years ago. It showed Liu Chao-Ying 
wired Mr. Chung $300,000 from Citibank, a U.S. bank. We 
received those same documents in May of this year. Since then, 
we have subpoenaed and obtained more information from Citibank 
that shed more light on Liu Chao-Ying, a colonel in the 
People's Liberation Army, and her financial activities. 
According to Citibank, the Department of Justice never even 
requested these, and here they are right here. The Justice 
Department did not even request these. This does not sound like 
a thorough investigation to me. We have seen this time and time 
again. Is it any wonder that the Congress has doubts about the 
Justice Department's investigation or Janet Reno's commitment 
to getting at the truth? Is it any wonder that we want to 
interview these same people?
    I would like to make one last appeal to Mr. Middleton. I 
want to ask one last time that you not invoke the fifth 
amendment. A lot of tough things have been written about you 
over the last couple of years, and you must want to defend 
yourself. We received testimony that you were doing something 
clandestine with agents of the Chinese military, the daughter 
of the PLA's most senior general. It was very cryptic, but 
since you have not spoken to us, that's all we have to go on. 
It has been reported that you were trying to raise money for 
the President's campaign in Taiwan.
    I am going to put up a DNC document on the screen.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.016
    
    Mr. Burton. It says that you are bringing in a very wealthy 
and powerful family from Indonesia to see DNC Chairman Don 
Fowler. Here is what it says: ``The Widjaja family is one of 
the wealthiest and most successful families in Indonesia. Mark 
Middleton will discuss their giving potential at a later 
date.''
    If you're being unfairly maligned, then I hope you will 
defend yourself. Your attorney says you have not done anything 
wrong. Then I hope you will explain that to this committee and 
explain it to the American people. We have been trying for 2\1/
2\ years to find out what happened, because the American people 
have a right to know the truth. I just hope that you really 
think long and hard about this. You have never testified under 
oath, and it's time you set the record straight.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.017
    
    [GRAPHIC] [TIFF OMITTED] T3044.018
    
    [GRAPHIC] [TIFF OMITTED] T3044.019
    
    [GRAPHIC] [TIFF OMITTED] T3044.020
    
    Mr. Burton. I now yield to my colleague Mr. Waxman for his 
opening statement.
    Mr. Waxman. Thank you, Mr. Chairman. We're here today for 
another hearing related to the committee's investigation of 
campaign fundraising in the 1996 election cycle. The purpose of 
the hearing is presumably to hear the testimony of Mark 
Middleton, a former White House aide. Mr. Middleton has 
cooperated with the Department of Justice's campaign finance 
investigation, and I'm glad that he has done so. I feel very 
strongly that witnesses should also cooperate with fair 
congressional investigations. This cooperation is essential if 
Congress is to fulfill its important oversight 
responsibilities.
    I understand that Mr. Middleton will invoke his fifth 
amendment privilege against self-incrimination today. I wish we 
could have heard from him today, but I recognize that he has a 
constitutional right to choose not to testify. In fact, given 
the regrettable course of this investigation, I can understand 
only too well why he has made this choice. In a letter to 
Chairman Burton this week, Mr. Middleton's lawyer stated--and I 
want to read from it, but at this point let me offer, Mr. 
Chairman, the complete text of the letter to you from Mr. 
Middleton's lawyer for the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.021
    
    [GRAPHIC] [TIFF OMITTED] T3044.022
    
    [GRAPHIC] [TIFF OMITTED] T3044.023
    
    [GRAPHIC] [TIFF OMITTED] T3044.024
    
    [GRAPHIC] [TIFF OMITTED] T3044.025
    
    [GRAPHIC] [TIFF OMITTED] T3044.026
    
    [GRAPHIC] [TIFF OMITTED] T3044.027
    
    [GRAPHIC] [TIFF OMITTED] T3044.028
    
    [GRAPHIC] [TIFF OMITTED] T3044.029
    
    [GRAPHIC] [TIFF OMITTED] T3044.030
    
    [GRAPHIC] [TIFF OMITTED] T3044.031
    
    [GRAPHIC] [TIFF OMITTED] T3044.032
    
    [GRAPHIC] [TIFF OMITTED] T3044.033
    
    [GRAPHIC] [TIFF OMITTED] T3044.034
    
    Mr. Waxman. His lawyer stated,

    Mr. Middleton's decision to decline to cooperate with the 
committee has unfortunately not been a hard one. It has been 
prompted by a pattern of baseless allegations, burdensome 
subpoenas, unending harassment of Mr. Middleton, his family, 
friends, and employees and business associates, and malicious 
leaks of confidential business information. Based on this 
pattern of malicious and reckless statements, Mr. Middleton 
reasonably concluded that the committee's inquiry was not a 
search for the truth, but a campaign to punish. Under the 
circumstances, he concluded that while he would cooperate fully 
with the investigation conducted by the Campaign Finance Task 
Force of the Department of Justice and would, in addition, make 
all of his business records fully available to your committee, 
he would not testify or produce documents in his personal 
capacity.

    That's the end of the quote from the letter from Mr. 
Middleton's lawyer.
    Unfortunately, Mr. Middleton's characterization of this 
committee's approach toward investigation is all too accurate. 
Our committee's work is beginning to resemble the search for 
the Holy Grail. We keep issuing more subpoenas, combing through 
more bank records, making more false accusations, and running 
down more blind alleys, all in the hopes of finding something. 
Given the millions of pages of documents the committee has 
received and the hundreds of people we have questioned, it's 
remarkable how little we have to show for this $7 million 
investigation.
    I do want to point out that in this letter from Mr. 
Middleton's lawyer, he indicated that Mr. Middleton was willing 
to be interviewed by the chairman and his counsel, with the 
understanding that the interview would not constitute a waiver 
of his fifth amendment privilege and would not be followed by a 
public appearance before the committee. The lawyer suggested 
that such an arrangement would furnish the committee with the 
benefit of whatever information Mr. Middleton might possess 
that would be of interest to our investigation, while sparing 
him the indignity of having to assert his fifth amendment 
privilege in a public session. And then the lawyer said, it 
assumed on your part a legitimate interest in pursuing an 
independent investigation and a decent respect for prevailing 
ethical rules which prohibit calling a witness who intends to 
claim his fifth amendment privilege. And the lawyer says, ``we 
were apparently wrong on both counts.''
    I wish Mr. Middleton could have illuminated our search by 
testifying today, but given our track record, we probably 
wouldn't have learned much anyway. I yield back the balance of 
my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Do any of the other Members have opening statements they 
would like to make?
    If you'd like to go ahead and make a statement.
    Mr. Horn. I don't want to delay the proceedings. If I could 
just have it submitted.
    Mr. Burton. We will submit it for the record.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.035
    
    [GRAPHIC] [TIFF OMITTED] T3044.036
    
    [GRAPHIC] [TIFF OMITTED] T3044.037
    
    [GRAPHIC] [TIFF OMITTED] T3044.038
    
    [GRAPHIC] [TIFF OMITTED] T3044.039
    
    [GRAPHIC] [TIFF OMITTED] T3044.040
    
    [GRAPHIC] [TIFF OMITTED] T3044.041
    
    Mr. Burton. Mrs. Chenoweth.
    Mrs. Chenoweth. Mr. Chairman, I have a statement that I 
would like to submit for the record.
    Mr. Burton. Without objection.
    [The prepared statement of Hon. Helen Chenoweth follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.042
    
    Mr. Burton. Does anyone else have anything they'd like to 
submit?
    Mr. Middleton, would you and your counsel come forward, 
please.
    [Witness sworn.]
    Mr. Burton. Mr. Middleton, because of your interaction with 
so many of these key figures who were involved in illegal 
contributions, such as DNC Finance Vice Chairman John Huang, 
Charlie Trie, the Riadys, and your client Mark Jimenez, as well 
as your involvement in seeking meetings for foreign nationals 
with the President, First Lady, and other administration 
officials, we have sought your testimony over the past 2 years. 
Today we would like to ask you about these connections.
    First, we would like to ask you about a November 1, 1995, 
DNC document, which reflects then DNC Chairman Don Fowler's 
schedule. We are going to direct your attention to exhibit No. 
44 on the second page, which is titled DNC 3022277. It's a 
scheduled meeting with Mark Middleton in the Sinar Mas Group 
Delegation, which I would note is controlled by the Widjaja 
family, which paid you in excess of $850,000, according to your 
own bank records. The note on the bottom of Fowler's schedule 
explains that the group was meeting with the President on 
November 3 and the First Lady on November 4. At the end of the 
note it states, ``The Widjaja family is one of the wealthiest 
and most successful families in Indonesia. Mark Middleton will 
discuss their giving potential at a later date.''
    Did you ever discuss with Don Fowler the possibility that 
the Widjajas or their family, who were foreign nationals, would 
contribute to the DNC?
    Mr. Luskin. Mr. Chairman, before we begin----
    Mr. Burton. Just 1 second, Counsel. Counsel, we have been 
through this before with previous counsels. The House rule 
11(k)(3) states that witnesses at hearings may be accompanied 
by counsel for the purpose of advising them of their 
constitutional rights. You are not here as a witness, and you 
may not address the committee. I will quote Congressman Tom 
Lantos, one of my Democrat colleagues, who, when chairing a 
subcommittee hearing in 1989, informed the attorney for HUD 
Secretary Samuel Pierce, that ``in essence at this hearing you 
are, in fact, a potted plant.'' I will not go that far, but 
that's what he said. Chairman Lantos then prevented the 
attorney for Secretary Pierce from making any statement. I 
enforced this rule last week when the attorney for Charles 
Parish repeatedly attempted to make statements before the 
committee, and we must enforce it again today. So if you have 
anything that you would like for Mr. Middleton to convey it 
must be conveyed through Mr. Middleton. Counsels for any 
witness are not allowed to testify or make any statement.
    Mr. Luskin. I have the utmost respect for rule 11(k)(3). I 
would ask respectfully that you also enforce rule 11.
    Mr. Barr. I ask for regular order. The witness has been 
instructed.
    Mr. Burton. Counsel, you have heard the rule and the ruling 
of the Chair. That is the way we are going to conduct this 
hearing.
    Mr. Middleton, do you recall the question I just asked?
    Mr. Middleton. I do recall. Mr. Chairman, on behalf of 
counsel, I respectfully assert my fifth amendment privilege and 
decline to answer the question.
    Mr. Barr. Mr. Chairman, the fifth amendment is a personal 
right. It can't be asserted on behalf of somebody. Is the 
witness asserting for his attorney or for himself? Maybe he can 
clarify that. He said he was asserting on behalf of.
    Mr. Burton. Would you restate your----
    Mr. Middleton. On advice of counsel, sir.
    Mr. Waxman. Point of order, Mr. Chairman.
    Mr. Burton. The gentleman will state his point of order.
    Mr. Waxman. The House rules provide that photographers may 
not position themselves between the witness table and the 
members of the committee at any time during the course of a 
hearing or meeting, and I understand Mr. Middleton and his 
counsel were asserting this rule. I think they have good 
grounds to assert this rule, because it is a rule of the House.
    Mr. Burton. Then we will request that the photographer go 
off to the side or someplace else.
    Mr. Luskin. Thank you, Mr. Chairman. That's the only issue 
I wanted to raise.
    Mr. Burton. Mr. Middleton, in May 1994, we have records of 
your first documented White House meeting with DNC fundraiser 
Charlie Trie. Trie shortly thereafter contributed $80,000 to 
the DNC and continued to contribute and raise large sums to the 
DNC and other Democratic-related sources amounting to over 
$800,000. In this timeframe, Mr. Trie also brought his Macau 
financier Ng Lap Seng, also known as Mr. Wu, to the White House 
to meet with you. In fact, you met with Trie and Ng Lap Seng on 
six occasions at the White House, according to our records. Mr. 
Wu was the individual who wired over $1 million to Charlie Trie 
in the 1994-1996 timeframe.
    Could you tell us about your knowledge of the foreign 
source on Charlie Trie's funds that he used to contribute or 
used for conduit contributions to the DNC?
    Mr. Middleton. Again, on advice of my counsel, I assert my 
fifth amendment privilege and will continue to do so with 
respect to any further questions.
    Mr. Burton. Could you tell us about your knowledge of Mr. 
Wu's assistance in providing funds to Mr. Trie that he used to 
contribute to the DNC?
    Mr. Middleton. My answer is the same, sir.
    Mr. Burton. Could you tell us whether or not anyone at the 
White House, including President Clinton, Vice President Gore, 
the First Lady, or Harold Ickes knew about the foreign origins 
of the money that Mr. Trie used to contribute or used to make 
conduit contributions to the DNC?
    Mr. Middleton. I answer respectfully the same, sir.
    Mr. Burton. Mr. Middleton, I direct your attention to a 
February 26, 1996, letter, on your company letterhead, exhibit 
No. 33, to a Mr. Joe Giroir of the Arkansas International 
Development Corp. In this letter you wrote, ``John Huang hosted 
a very successful event for the President this week. Both the 
President and Marven Rosen commented to me about the great job 
that John is doing. I hope you will relay that message.'' 
Presumably this was referring to the February 19, 1996, 
fundraiser reflected here in this picture. Do we have the 
picture? It's a picture of a $1 million check with Huang and 
Fowler. Approximately two-thirds of the funds raised at this 
event have been identified as coming from illegal or foreign 
sources, some of which have yet to be returned by the DNC.
    Did the President know about the foreign origins of the 
funds raised at this event, and could you tell us about the 
President's knowledge about the funds raised at this February 
19 event?
    Mr. Middleton. My answer is the same, sir.
    Mr. Burton. To whom did you want----
    Mr. Waxman. Point of order, Mr. Chairman.
    Mr. Burton. The gentleman will state his point of order.
    Mr. Waxman. I believe it's improper to have repeated 
questions of witnesses who invoke the fifth amendment, and I 
would cite for you the Legal Ethics Committee of the District 
of Columbia Bar, which held that it's unethical for a 
congressional staff attorney to require a witness to claim a 
fifth amendment privilege in public session. This opinion 
states that when it is known in advance that no information 
will be obtained, and the sole effect of the summons will be to 
pillory the witness, requiring the appearance of the witness to 
assert his fifth amendment privilege in public before a 
congressional committee, will violate legal and ethical 
standards including the obligation of lawyers to avoid the 
infliction of needless harm, to refrain from using their 
positions to harass parties, and to avoid asking questions of 
witnesses solely for the purpose of harassing or embarrassing 
them.
    I also want to point out the fifth amendment is a 
constitutional right. When a person asserts this right, it may 
not be used as an inference of guilt or innocence. ``In our 
view,'' now quoting from a court case, ``an interrogating 
official himself gravely abuses the privilege against self-
incrimination when he nevertheless insists on asking the 
incriminating question with a view to eliciting a claim of 
privilege and thereby creating prejudice against the witness or 
some other party concerned.'' That's a direct quote from the 
United States v. Tucker, U.S. 267 F.2d 212, 215, 1959. I have 
other citations as well, but I see no purpose, as much as I 
regret Mr. Middleton taking the fifth, since he has taken it, 
to have repeated questions of him to which he's going to only 
assert a fifth amendment right that he has.
    Mr. Burton. That is not a valid point of order. The Chair 
rules. That is not a valid point of order, Mr. Waxman.
    Mr. Waxman. Could the Chair cite legal authority which is 
contrary to that which I asserted?
    Mr. Barr. Mr. Chairman, if the Chair would yield.
    Mr. Burton. Just 1 second.
    Mr. Waxman. I might point out last week with Mr. Parish, 
the chairman took the view that----
    Mr. Burton. It has nothing to do with House rules, and the 
Chair rules it's not a valid point of order. Mr. Waxman, you 
can take it up with the Parliamentarian if you choose.
    Mr. Waxman. I'm going to appeal your decision. We have a 
vote on the floor, and we'll take it up with the 
Parliamentarian.
    Mr. Burton. Both John Huang and Charlie Trie----
    Mr. Waxman. Mr. Chairman, I have an appeal of the decision 
of the Chair pending.
    Mr. Burton. We will have a vote on it right now.
    Mr. Barr. Mr. Chairman, I move to table that.
    Mr. Burton. The motion has been made to table the objection 
by Mr. Waxman. All those in favor signify by saying aye.
    All opposed?
    The issue has been tabled.
    Both John Huang and Charlie Trie, Mr. Middleton, solicited 
or obtained most of the contributions associated with this 
event. Could you tell us any knowledge that you might have 
about how Mr. Huang or Mr. Trie obtained these foreign funds 
and distributed them for conduit contributions to the DNC?
    Mr. Middleton. My answer is respectfully the same, sir.
    Mr. Burton. Vice President Gore had a fundraising event the 
following morning, February 20, 1996, for the same donors that 
contributed to the February 19 event. We have a picture of you 
here at that event with the Vice President. Did Vice President 
Gore have any knowledge regarding the foreign origins of the 
funds from this or related events?
    Mr. Middleton. My answer is respectfully the same, sir.
    Mr. Burton. Mr. Middleton, I would like to point out that 
the fifth amendment privileges relate to one item and one item 
only, and that is the fear of potential self-incrimination. No 
witness is entitled to claim the fifth amendment because he may 
not approve statements made by Members or because you do not 
like this particular forum. It is very important for you to 
understand, and you are a lawyer, so I presume you do, that in 
order to validly claim the fifth amendment, you must fear 
potential self-incrimination if you were to testify under oath.
    With that being said, my question is, is it your position 
that if you were to testify under oath before this committee, 
you fear the potential for self-incrimination?
    Mr. Middleton. Sir, as I understand it, I have a right to 
counsel, according to the House rules. My counsel is present 
here beside me, and I'd like to defer to him on the basis of 
any legal opinions.
    Mr. Burton. You can consult with your lawyer. Your lawyer 
cannot address the committee under House rules. You can answer 
the question or confer with him and then answer the question.
    Mr. Middleton. I understand, sir, that I have a legally 
valid claim to assert the privilege, and I'm doing so here 
today.
    Mr. Burton. The fifth amendment?
    Mr. Middleton. Yes, sir.
    Mr. Burton. I will enter into the record letters from your 
attorney claiming that you have totally cooperated with the 
Justice Department, and that you have not taken the fifth with 
Justice. I will also enter into the record a report from the 
Congressional Research Service which indicates that this 
representation suggests Mr. Middleton has waived his fifth 
amendment privilege.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.043
    
    [GRAPHIC] [TIFF OMITTED] T3044.044
    
    [GRAPHIC] [TIFF OMITTED] T3044.045
    
    [GRAPHIC] [TIFF OMITTED] T3044.046
    
    [GRAPHIC] [TIFF OMITTED] T3044.047
    
    [GRAPHIC] [TIFF OMITTED] T3044.048
    
    [GRAPHIC] [TIFF OMITTED] T3044.049
    
    [GRAPHIC] [TIFF OMITTED] T3044.050
    
    [GRAPHIC] [TIFF OMITTED] T3044.051
    
    [GRAPHIC] [TIFF OMITTED] T3044.052
    
    [GRAPHIC] [TIFF OMITTED] T3044.053
    
    [GRAPHIC] [TIFF OMITTED] T3044.054
    
    Mr. Burton. It is important to note that it is the 
committee which must decide whether the privilege has been 
validly claimed. A witness cannot claim the privilege against 
self-incrimination just to avoid testifying or because you do 
not like the forum or Members of Congress. Instead you must 
have a real basis for fearing self-incrimination. Again, I 
think it's important for the record and for us to assess 
whether your claim is a valid claim.
    Are you refusing to answer questions on the grounds that 
your statements may lead to self-incrimination?
    Mr. Middleton. I understand I have a legally valid claim of 
the fifth amendment privilege, sir.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. Your answer is in the affirmative?
    Mr. Middleton. My answer was the answer, sir.
    Mr. Burton. Is it your position that you will not answer 
questions on the same topics that you addressed with the 
Justice Department?
    Mr. Middleton. Same answer, sir.
    Mr. Burton. You will not answer the questions for the 
committee?
    Mr. Middleton. That is correct, sir.
    Mr. Burton. These questions that were put to you by the 
Justice Department and thosse that we may be asking which are 
in the same vein, you will not answer?
    Mr. Middleton. That's correct, sir.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. I will reserve the rest of my time until after 
this vote. We have a vote on the floor, as I understand it. We 
will stand in recess to the call of the gavel.
    [Recess.]
    Mr. Burton. Mr. Middleton, would you come back. Mr. Waxman 
is not here. We have waited for him, and I assume he'll be back 
pretty quickly, but we thought we'd go ahead with the 
questioning. I am going to yield for whatever time he may 
consume to Mr. Barr, who's on my time. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Middleton, are you an attorney?
    Mr. Middleton. On advice of counsel, I respectfully assert 
my fifth amendment privilege, sir.
    Mr. Barr. Are you a member of the Arkansas Bar Association?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. Are you saying that you believe simply admitting 
that you're an attorney will tend to incriminate you? I've 
heard a lot of jokes about lawyers. You're serious? In all 
seriousness, you won't even admit to this committee whether or 
not you're a lawyer?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. Your attorney, though, has written extensively to 
the committee, both to counsel for the committee and to the 
chairman and perhaps others, detailing, for example, in a 
letter dated May 7 of this year and extolling your tremendous 
cooperation with the Department of Justice, at which time you 
not only did not claim the fifth amendment privilege that you 
are asserting today, but that you answered questions and 
cooperated fully without any restrictions. Your lawyer goes on 
in that same letter to characterize the results of the 
Department of Justice investigation which would be the 
prosecuting authority, if you, in fact, had done anything 
wrong, that would be prosecuted, saying that they found no 
evidence of wrongdoing by you.
    In light of those facts, what is it that you're worried 
about if the Department of Justice, that your lawyer thinks has 
already determined that you have done nothing wrong, they would 
be the prosecuting authority, what is it that you're worried 
about that causes you to assert the fifth amendment today when 
you haven't asserted it previously? This committee can't 
prosecute you.
    Mr. Middleton. Sir, I respectfully give you the same 
answer.
    Mr. Barr. I have a chart that I'd like put up and to which 
I direct your attention, Mr. Middleton.
    Ng Lap Seng, does that name ring a bell with you?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. Have you ever met Mr. Ng Lap Seng?
    Mr. Middleton. I respectfully give the same answer, sir.
    Mr. Barr. The committee, during the course of its 
investigation in these matters, has uncovered in detailed 
evidence substantial cash moneys brought into this country from 
China by Ng Lap Seng. Just by way of example, on June 20, 1994, 
he brought in $175,000, and, by the way, these figures are 
verified by the reports that have to be completed when a person 
brings a certain amount of cash into the country. On July 31, 
1994, $42,000 was brought in. On October 19, 1994, $25,000 was 
brought in. On February 15, 1995, $12,000 was brought in, and 
so forth.
    The committee has also uncovered both through testimony and 
through official records of the White House that Mr. Ng Lap 
Seng met with you at the White House 2 days after bringing 
$175,000 of cash into this country on June 20, 1994; is that 
correct?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. The committee also has evidence through various 
sources, including official White House records, that Mr. Ng 
Lap Seng met twice with you at the White House, 1 and 2 days 
later, after bringing $42,000 of cash into this country on July 
1, 1994. Is that correct?
    Mr. Middleton. I respectfully give the same answer, sir.
    Mr. Barr. This committee has uncovered evidence, including 
official White House records, that 1 day after Mr. Ng Lap Seng 
brought $25,000 of cash into this country on October 19, 1994, 
that he met with you at the White House. Is that correct?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. This committee has uncovered evidence, including 
official White House records, that 1 day after Mr. Ng Lap Seng 
brought $12,000 in cash into this country on February 15, 1995, 
that he met with you at the White House. Is that correct?
    Mr. Middleton. Sir, with respect to all these questions, 
I'm going to provide you with the same answer.
    Mr. Barr. Are the White House records reflecting that you, 
in fact, have met on those and other occasions with Mr. Ng Lap 
Seng at the White House in error?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. Were these questions put to you by attorneys for 
the Government?
    Mr. Middleton. I respectfully give the same answer, sir.
    Mr. Barr. You did, in fact, answer questions to this effect 
when questions on these matters were put to you by the 
Government without asserting a privilege; did you not?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. I would like to refer again to something that the 
chairman referred to, and these--although his words were 
similar, these are the words of a prominent Democrat on this 
committee, Mr. Lantos, back in 1989. He said, ``The fifth 
amendment privilege relates to one item and one item only, and 
that is the fear of potential self-incrimination. No witness is 
entitled to claim the fifth amendment because he may not 
approve of statements made by members of the subcommittee.'' I 
think it is important for you, and he's addressing the witness 
in that case, to understand this, and he was addressing it to 
the lawyer, and as a lawyer, I'm certain that you do.
    Do you understand that the fifth amendment privilege which 
you are now asserting is a personal privilege and must relate, 
if it is to be sustained, only to the potential for self-
incrimination, and it cannot be a valid basis on which to 
refuse to answer questions put to you by a legitimate and duly 
authorized committee of the Congress simply because you, as 
your lawyer has indicated, don't like the way this committee 
may operate, you may disagree with what this committee is 
doing, or you may be afraid that it might embarrass you or 
result in so-called leaks? Do you understand that as being the 
scope of the fifth amendment?
    Mr. Middleton. My lawyer has advised me on the scope of the 
fifth amendment privilege, and if you have any further 
questions, I would ask that you--that I defer to him.
    Mr. Barr. You can defer to him, but he is not a witness 
today. You are. Do you understand the scope of the fifth 
amendment that you are asserting?
    Mr. Middleton. Same answer, sir. I assert my fifth 
amendment privilege.
    Mr. Barr. You think that even admitting that you understand 
the scope of the fifth amendment might tend to incriminate you?
    Mr. Middleton. I assert my fifth amendment privilege, sir.
    Mr. Barr. This is ludicrous, Mr. Middleton. Are you a bag 
man for Ng Lap Seng or any other foreign individual?
    Mr. Middleton. Sir, I resent the question, and I continue 
to assert my fifth amendment privilege.
    Mr. Barr. So you'll answer that. That's all. I yield back, 
Mr. Chairman.
    Mr. Burton. The Chair will yield such time as he may 
consume to the gentleman from Arkansas, Mr. Hutchison.
    Mr. Hutchinson. I thank the chairman for yielding, and I 
just want to make a few comments, Mr. Chairman.
    Mr. Middleton, I just want to say at a personal level, I 
regret the circumstances of your appearance today, and I 
remember the last time that we had an occasion to be together 
was where we were both speaking at the Hugh O'Brien Youth 
Scholarship dinner, and this is certainly not the same pleasant 
circumstances. I just want to say that your statements today 
are problematic for any Member of Congress who takes his or her 
constitutional responsibility seriously, and I do, because as I 
look at your statements through your lawyer on the May 7, 1999, 
letter, you indicate that you are cooperating with the 
Department of Justice. But because, and I'm characterizing, you 
do not believe this committee is operating in good faith or you 
don't like the personality of this committee, that you do not 
wish to cooperate with this committee. And that's a conclusion 
that you reach. Then through your attorney, you state in the 
record that you have cooperated fully with the Department of 
Justice and that they have exonerated you.
    This committee can call the Department of Justice and ask 
them to bring us up to date on Mark Middleton, and they will 
say, well, it's a matter of ongoing investigation so they can't 
certainly give us the information that is helpful in our 
inquiry.
    The other reason it's very difficult for us is that this is 
an important area of inquiry to determine what happened in the 
1996 election: the flow of money coming into our country, any 
influence that was sought or obtained, and the allegations that 
were made. So this is just a difficult circumstance that you 
through your assertion of the fifth amendment have placed this 
committee in.
    I realize you have a constitutional right to assert that, 
but whenever--I have to rely upon my background somewhat here. 
You waived it in cooperation of the Department of Justice, but 
assert it in reference to this committee based upon your own 
subjective determination that you don't like the direction of 
this committee. That is really laying down the gauntlet to the 
U.S. Congress, and so I think that your assertion really has 
challenged the integrity, responsibility, and constitutional 
authority of this committee. And I'm speaking of the assertions 
made through your attorney in the letter of May 7, 1999.
    It looks to me like you leave us with few options. We can 
ignore this, which appears to me you set a precedent that 
future witnesses come in and just say, we don't like this 
committee, so we're not going to cooperate, and we're not going 
to honor a subpoena. Second, we could hold you in contempt, 
which is not something any Congress takes lightly. It's a very 
serious step, but that is an option that is out there. And 
whenever we're dealing with an important area, it's just very 
different, and I'm just relating to you, Mr. Middleton, my 
feelings as an Arkansan, but also as a Member of Congress who 
takes the responsibility of this committee and believe that our 
oversight responsibility is important. I know it's very 
difficult on you personally, but if you do believe, as 
indicated in your attorney's letter, that you can be exonerated 
in this, then I would encourage you and your attorney to sit 
down and to cooperate fully with this committee so that we 
don't have to address this further. We would just simply like 
to get to the bottom of the inquiry to know what you know, and 
I think that that would be very helpful. I just give you the 
opportunity, Mr. Middleton, to respond in any way that you deem 
appropriate to my comments.
    Mr. Middleton. Thank you. I understand and appreciate your 
position, Congressman.
    Mr. Hutchinson. Thank you, Mr. Chairman. I yield back.
    Mr. Burton. Mr. Barr, you have one more question?
    Mr. Barr. Yes. Thank you, Mr. Chairman.
    Mr. Middleton, it's my understanding, even though you won't 
admit it, that you are an attorney, and as an attorney, do you 
understand that the fifth amendment, as other amendments to the 
Constitution, specifically those contained in the Bill of 
Rights, are not absolute? Do you understand that?
    Mr. Middleton. I'm not appearing here as an attorney today, 
sir. I understand as an American citizen I have a valid 
constitutional right to assert my fifth amendment privilege, 
which I've done so.
    Mr. Barr. As a citizen do you understand that the fifth 
amendment is not absolute in its scope?
    Mr. Middleton. I'm asserting my privilege, sir.
    Mr. Barr. As an attorney or as a citizen?
    Mr. Middleton. I'm asserting my privilege, sir.
    Mr. Barr. You understand that, for example, in a court 
proceeding, when a witness asserts his or her fifth amendment 
rights, and the Government believes that that witness is 
asserting their fifth amendment rights improperly, they can go 
before a court and seek sanctions against that person if the 
court, in fact, determines that the privilege is being asserted 
improperly or beyond the scope?
    Mr. Middleton. Sir, I respectfully assert my privilege.
    Mr. Barr. Do you understand that similarly in response to a 
congressional subpoena, which you are under, that there can be 
a further test of whether you are asserting your fifth 
amendment properly or not, and that if you are not, and 
Congress so decides, it can seek sanctions against you?
    Mr. Middleton. Same answer, sir.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Burton. Let me, before I conclude with my time, say 
that it is disappointing that the gentleman from Arkansas, Mr. 
Middleton, has elected to take the fifth amendment. What is 
equally or even more disconcerting to me is that he has said he 
has cooperated with the Justice Department. When we talk to 
Justice Department lawyers, they tell us they cannot tell us 
anything about it. The same thing is true of Charlie Trie, John 
Huang, and a host of others. They are hiding behind rule 6(e) 
and the grand jury. They are keeping cases open, I believe, 
just so that this committee cannot get at the truth. They are 
granting very light sentences to some very important people in 
this campaign finance scandal. It becomes more and more 
apparent to me, and I think to the members of this committee 
and to the American people, that the Justice Department is 
building not just a stonewall, but a concrete and steel wall 
against the Congress of the United States getting at the truth.
    If Mr. Middleton says that he has cooperated with the 
Department of Justice, and he will not talk to the Congress of 
the United States, and the Justice Department will not work 
with the Congress of the United States, how are the American 
people ever to have any confidence whatsoever that all the 
allegations in the campaign finance scandal are not true? We 
know that $3 million plus came in from Communist China, from 
Macau, from Indonesia, from all over the world, and we cannot 
get the Justice Department to work with us; Janet Reno 
protecting the President. We cannot get the people who have 
cooperated, they say, with the Justice Department, to testify 
before the committee because they are asserting their fifth 
amendment privileges. And so the Congress of the United States, 
which is duly elected by the people, whose duty it is to get 
into these things and make sure the government operates not 
only efficiently, but honestly, we cannot do our job.
    And I think it is a crying shame. I just wish that the 
country knew more about this. The media, CBS, ABC, NBC, CNN, 
they do not report any of this stuff. The only one I have seen 
this on is Fox news. It is very disconcerting because the 
American people have a right to know that the truth is being 
kept from them, not just by the people who may have been 
involved in this scandal, but by the Justice Department itself. 
I yield back the balance of my time. Mr. Waxman, you are 
recognized for 30 minutes.
    Excuse me, Mrs. Chenoweth, did you have some questions?
    Mrs. Chenoweth. Yes.
    Mr. Burton. I yield to you the balance of my time.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Middleton, are you asserting your fifth amendment 
rights as a private citizen or as an attorney?
    Mr. Middleton. As an American citizen.
    Mrs. Chenoweth. Through your attorneys, and everyone has 
asked you about this, Mr. Middleton, you've told the committee 
that you've answered the questions put to you by the Justice 
Department. As you can imagine, as you can tell from the 
questions being posed to you, this is very puzzling and 
contradictory in this course of action that you've chosen to 
take. By invoking your fifth amendment privilege here, Mr. 
Middleton, you're asserting that testifying before this 
committee would be self-incriminating, and yet you expect us to 
believe that you have cooperated fully with the Justice 
Department investigation with no apparent fear of self-
incrimination.
    I want to ask you, did they agree not--did the Justice 
Department agree not to question you with any questions that 
might incriminate you?
    Mr. Middleton. I'm not going to discuss the subject matter, 
ma'am.
    Mrs. Chenoweth. You're not going to discuss the subject 
matter?
    Mr. Middleton. No, ma'am. I assert my privilege.
    Mrs. Chenoweth. Mr. Chairman, this is astounding, and I 
think that the comments from Congressman Hutchinson were very 
serious as well as the comments from you, Mr. Chairman, as well 
as Mr. Barr. I don't think this committee can take this 
lightly. We have had 122 people assert their fifth amendment 
rights and refuse to answer questions with regards to clear 
statutory mandates regarding foreign contributions. It seems 
this whole administration is circling the wagons, diving into 
the bunkers, and building a wall between themselves and the 
American people.
    This form of Government, this democracy of ours, can only 
exist if we have openness in Government and openness in 
campaign. I think this not only says a lot about the witness, 
but even more about the administration, and more about the 
Justice Department. I think it's very chilling in what we're 
seeing, Mr. Chairman, is a secret Government that is becoming 
patently obvious. That is very, very concerning.
    Thank you, and I yield back the balance of my time.
    Mr. Burton. I see my time has expired.
    Mr. Waxman.
    Mr. Waxman. The gentleman who is before us today has been 
out of the administration for 4\1/2\ years. Our form of 
Government can only function when people respect the 
Constitution of the United States and people's rights. Every 
court case on the matter has indicated that it is unethical to 
harass witnesses by asking them over and over again questions 
to which they would assert the fifth amendment.
    Our committee has now come to a new and offensive level of 
establishing procedures that are unheard of in the history of 
the Congress. We have never had a committee of the Congress 
until last week proceed to ask a witness who took the fifth 
amendment more than three questions. That took place when Mr. 
Parish appeared. Today we have subjected Mr. Middleton to a 
half-hour of continuous questioning and accusations by the 
Republican members of this committee.
    It seems to me that this committee is establishing a new 
low. We've already documented in our report on the committee's 
campaign finance investigation that the committee violated and 
abused its subpoena power, its deposition power, the way it has 
granted immunity, the way it has handled contempt. It was 
interesting to see the letter from Mr. Middleton where he 
said--and it certainly strikes home now in light of what's gone 
on today--that Mr. Middleton's decision to decline to cooperate 
with the committee has unfortunately not been a hard one. It 
has been prompted by a pattern of baseless allegations, 
burdensome subpoenas, unending harassment of Mr. Middleton and 
others, and the chairman--in this letter it has been pointed 
out to the chairman that he himself has accused Mr. Middleton 
of criminal conduct on numerous occasions without any evidence 
to support these reckless charges.
    This committee has acted recklessly, and if anybody has any 
doubt about it, just remember that 1 year ago this committee 
put out documents, transcripts that were doctored that related 
to conversations by Webb Hubbell. Whatever anyone might say 
about Webb Hubbell, there's no excuse for what happened to him 
and how those----
    Mr. Barr. Mr. Chairman----
    Mr. Waxman. Mr. Chairman, it is my time, and I will proceed 
with my time.
    Mr. Barr. Mr. Chairman, I think it's inappropriate for 
somebody----
    Mr. Waxman. Regular order, Mr. Chairman. Regular order.
    Mr. Barr [continuing]. To impugn the integrity of this 
committee. Whether he likes it or not, I think it's highly 
inappropriate----
    Mr. Waxman. Regular order, Mr. Chairman. Regular order, Mr. 
Chairman.
    Mr. Burton. The gentleman from California has the time, 
unless the gentleman from Georgia has a point of order.
    Mr. Barr. Point of order, Mr. Chairman.
    Mr. Burton. The gentleman will state his point of order.
    Mr. Barr. What is the applicability of the general rule not 
to impugn the integrity of other Members of the Congress and 
have Members' words taken down if they violate that rule? Is 
that applicable in committee?
    Mr. Burton. The gentleman will suspend one moment, please.
    Mr. Waxman. Mr. Chairman, I am giving a factual statement. 
There is no rule that prevents a Member from giving a factual 
statement.
    Mr. Burton. We will allow you to continue. Just suspend for 
just a minute.
    Mr. Waxman. Will the time be stopped?
    Mr. Burton. The time, like my time, will not be taken away 
from you.
    Evidently the statements of the gentleman have not violated 
the decorum of the committee, and so he, although it may be 
offensive to me and some other Members, is allowed to continue.
    Mr. Waxman. Mr. Chairman, we've learned today that it's 
very hard to offend the decorum of this committee because the 
decorum of this committee, I think, was violated when this 
witness was subject to harassment and asked repeated questions 
over and over again in order to get him to publicly assert his 
constitutional rights.
    The Constitution of the United States grants certain 
rights. It grants the right to freedom and free speech, not to 
self-incriminate, and those rights are not subject to being 
taken away by those who might not approve of what the 
individual is asserting. And lawyers on this committee 
particularly should be sensitive, I believe, but all Members 
ought to be sensitive to the fact that the Constitution is 
there to protect all of us. Even a majority of the Congress of 
the United States, even a two-thirds majority of the Congress 
of the United States, even a unanimous vote of the Congress of 
the United States may not take away the rights guaranteed under 
the Constitution to any citizen, because those individual 
rights are supreme and must be respected. I think what we've 
seen here today is a lack of respect for Mr. Middleton and, 
more importantly, for the Constitution and the way the Congress 
should be proceeding in any investigation.
    And as I was saying about the doctored transcripts of Webb 
Hubbell, had that taken place in any other setting, it would 
have been tantamount to falsification of evidence, so I can 
understand the reluctance of this witness to come before us and 
answer questions in this kind of forum.
    Mr. Middleton's lawyer did suggest that if our inquiry was 
to try to get information, that he would appear before the 
chairman and the counsel of the committee if his rights were 
respected not to waive the fifth amendment privilege, and it 
would not be followed by a public appearance. That strikes me 
as a reasonable offer, and the reason that offer appears to me 
to have been rejected is that it was the desire of the 
committee to have Mr. Middleton here in a public spectacle in 
order to score political points.
    I'm highly offended at the way this committee has acted 
today. I think it's been improper. It's not surprising in light 
of the history of the way this committee has conducted its 
investigation, but I do think that with all of the outrage that 
I've felt and expressed about the way the committee has acted, 
we are achieving a new low in the way this committee has 
handled itself today.
    The process by which we've acted today continues to say 
more about how this committee is willing to violate people's 
rights and not conduct an investigation that can be taken 
seriously by the American people or by our colleagues in the 
Congress.
    Mr. Chairman, you earlier had asserted a CRS opinion that 
argued that Mr. Middleton waived his fifth amendment privilege. 
I want to put into the record a memo on that very point, 
because I don't believe Mr. Middleton has waived his fifth 
amendment privilege by voluntarily agreeing to answer questions 
by the FBI and the Justice Department.
    Mr. Barr. Reserving the right to object.
    Mr. Waxman. Mr. Chairman----
    Mr. Burton. You reserve your right to object?
    Mr. Barr. Simply to inquire of the ranking member if he can 
identify the source of the document.
    Mr. Waxman. I am preparing my own memorandum to submit to 
the committee record, and I'd like to ask the record be open so 
that I can add that document and any other materials.
    Mr. Barr. I withdraw my reservation.
    Mr. Burton. The gentleman withdraws his reservation.
    Mr. Waxman. I don't think Mr. Middleton has waived his 
fifth amendment privilege, and I think that anyone who looks at 
the record of this committee's hearing today would understand 
why he was reluctant to come in and express his answers to 
questions and waive his constitutional rights before us.
    Now, Mr. Middleton, ordinarily when a committee hearing is 
held, the first thing that happens is the witness is asked to 
make comments, present any kind of testimony. You weren't even 
afforded that right. Immediately you were subjected to 
questions being thrown at you in eager anticipation that you 
take the fifth amendment repeatedly.
    Let me offer to you at this time, and the time is allotted 
to me, and I had to wait 30 minutes before I had any time to 
ask or say anything, do you have anything you want to comment 
upon on today's proceeding?
    Mr. Middleton. No, sir, not at this time, but I do 
appreciate your offer.
    Mr. Waxman. Well, Mr. Chairman, I have no questions of the 
witness. I will put further documents in the record under the 
unanimous consent agreement that has been reached by the 
committee, and I see no reason to prolong this unpleasant 
hearing today, so I yield back the balance of my time.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3044.055
    
    [GRAPHIC] [TIFF OMITTED] T3044.056
    
    [GRAPHIC] [TIFF OMITTED] T3044.057
    
    [GRAPHIC] [TIFF OMITTED] T3044.058
    
    [GRAPHIC] [TIFF OMITTED] T3044.059
    
    Mr. Burton. The gentleman yields back the balance of his 
time. I will take 5 minutes under the 5-minute rule to respond 
to a couple of things that have been said, and you will have 5 
minutes if you choose to use them.
    First of all, it is not unprecedented for extended 
questioning when someone asserts their fifth amendment 
privilege before a committee. Mr. Lantos--and we will be glad, 
very happy, to provide to you the record of Mr. Lantos' 
questioning of witnesses for extended periods of time with the 
concurrence of the minority, I might add, which is not the case 
in this particular case. When the gentleman from California 
states that we are doing something that is a new low, well, if 
this is a low, then it was established by the Democrats when 
they were in charge. Mr. Lantos did it and so did Mr. Dingell. 
I would be glad to give you that information for the record.
    With respect to the doctoring of the tapes, which impugns 
the integrity of the chairman of this committee and the staff 
of this committee, I want you to know that there were 16 hours 
of tapes, that we obtained legally, of the conversations that 
Mr. Hubbell had. Those 16 hours of tapes were condensed not 
because we were trying to alter the tapes, but because we 
thought that the most salient issues should be in those 
transcripts. You will recall that the minute any doctoring was 
called into question, the very next day we released all 16 
hours of the tapes.
    Mr. Hubbell said in those tapes that his wife was 
complaining about the pressure being brought upon her by the 
White House, and she was afraid of losing her job. Mr. Hubbell 
said, well, I guess I'll have to roll over one more time. I do 
not know how you can interpret that, but it can't be 
interpreted in too many ways. The fact of the matter is, 
exculpatory material that people alleged that we took out of 
there was in the tape and was in all of the 16 hours of tapes 
that we presented.
    I know that the media has made some kind of those 
representations, and you have, Mr. Waxman, but those tapes were 
not doctored. They were not doctored at all. They were very 
clear, and because we wanted to eliminate any doubt about the 
intent of this committee, we released all 16 hours of the 
tapes. I personally resent the implication that I or my staff 
did anything to try to doctor those tapes, because they were 
not doctored.
    I would like to also state in conclusion that we would like 
to have had the cooperation of Mr. Middleton. We tried to get 
his cooperation as well as the other 122 witnesses who have 
evaded this committee, many with the help of the Justice 
Department. We have tried to get them to work with us for 2\1/
2\ years. Unfortunately that has not been the case. And so no 
matter what you say about this committee or how you categorize 
this committee or what kind of spin you put on the activities 
of this committee, whether it's the worst committee in history 
or it's a new low, I will tell you one thing, Mr. Waxman, we 
are not going to be deterred. We will continue to pursue this 
investigation until we find some answers for the committee, and 
for the American people who we represent.
    Millions of dollars in money came in from Communist China 
and elsewhere. The head of the Chinese military intelligence 
arranged for $300,000 to go through a conduit, in large part, 
to the DNC, and we believe probably to the President's re-
election committee. People from Macau were giving money. People 
from other Chinese entities were giving money to the DNC and 
for the re-election of the President. The President was running 
people in and out of his office through people like Mr. 
Middleton on a regular basis, like John Huang and Charlie Trie 
and Johnny Chung. There is a pictorial record of that. At the 
same time all this was happening, millions of dollars were 
coming in.
    You may think that it is not an important thing to look 
into, but if the elections of the United States of America are 
being influenced or redirected by a foreign Government who may 
not have our best interest at heart, who may be a potential 
adversary in the future, by golly I intend, and our committee 
intends as long as I'm chairman of it, to try to get to the 
bottom of it.
    Does anybody else have anything they would like to add? If 
not, I yield back the balance of my time.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. The gentleman from California.
    Mr. Waxman. It's hard to accept a reasoning that everything 
that's done in violation of any idea of fairness or respecting 
people's rights can be justified because the Democrats did the 
same thing. That's a very childish explanation, and I've heard 
it over and over again. It doesn't--it just doesn't wash. It's 
just immature. At what point do people start saying, what is 
the proper way to behave, and behave that way rather than say, 
the other guy did it as well. But it's also peculiar if you 
take that attitude to say that the only campaign finance 
violations that this committee would look at would be only 
Democratic--potential Democratic violations and to ignore 
completely anything the Republicans might have done in the 1996 
campaign. But that's what we've seen in this committee, and it 
has been a repeated reason why none of us have been able to 
take, among other reasons, this investigation with any 
seriousness.
    But I may be incorrect in my recollection about the Webb 
Hubbell transcripts. I'll have to go back and look at it more 
carefully, but as I recall, that when those transcripts of Mr. 
Hubbell's conversations with his friends and family and even 
his lawyer was released, the Speaker of the House Newt Gingrich 
was so offended that he demanded the resignation of a key 
Republican staff person, and that staff person resigned as a 
result of the Speaker's request.
    I won't go back and forth with you about it, Mr. Chairman. 
I'll go back and look at the records again and see whether what 
you did was proper, but I remember talking to some friends who 
were sitting on the Internet and actually listening to 
conversations that Webb Hubbell had with his daughter while he 
was in prison when she tried to talk to him about personal 
matters as she was growing up as a young girl without a father 
in the home. I must say I was tremendously offended that all of 
that information was made available to anybody who wanted to 
listen to it, and that information should never have been made 
public and was only made public after the committee released 
transcripts that were edited to remove any exculpatory 
materials or information that related to the investigation. 
What the public had before it were complete audiotapes of 
conversations that Webb Hubbell had with others, and I just 
think that, to me, that stands out, I thought, as low as one 
could imagine. But it sounds to me after today's hearing that 
perhaps this committee hasn't reached the bottom yet.
    I yield back the balance of my time.
    Mr. Barr. Mr. Chairman.
    Mr. Burton. Mr. Barr. If you have any time, would you yield 
to me?
    Mr. Barr. Certainly. I think the American people who may be 
listening to this cannot let the statements of the ranking 
member just stand on the record. The absurdity of saying that 
for the committee Chair to cite precedence of former committee 
and subcommittee Chairs just after the ranking member has tried 
to cite as a precedent for the propriety of this witness 
asserting the fifth amendment or the impropriety of this 
committee requiring him to so assert it, an opinion, an 
irrelevant opinion, but an opinion of the DC Bar is somewhat 
inconsistent. In other words, the ranking member is more than 
willing to put forward items that he thinks are appropriate 
precedents, but when the chairman seeks to cite precedents in 
response to criticisms of the ranking member of prior committee 
and subcommittee Chair actions, he says, oh, this is highly 
improper. It just illustrates the inconsistency and the 
absurdity and the impropriety of the ranking member's 
statements.
    I would also like to state for the record once again, as 
you have, Mr. Chairman, but in light of the fact that this red 
herring, this canard keeps coming up every time the ranking 
member opens his mouth, those tapes were not doctored. That is 
an absolutely incorrect, inappropriate, and disgraceful 
assertion to make against the chairman, against the committee 
staff, or against anybody else. That evidence speaks for 
itself.
    And at this time, Mr. Chairman, I'd be glad to yield to you 
the balance of my time.
    Mr. Burton. Thank you. We are drawing to a close here. We 
do not want to beat on this any longer, but just to comment on 
ignoring Republicans. One thing has become clear in this 
investigation. The Justice Department has dealt with Republican 
violations. Republicans got the following fines for conduit 
contribution violations: $8 million, $6 million, $5 million. 
Janet Reno has done fine with Republicans, but not with the 
Democrats and foreign money. Only Mr. Waxman wants to interject 
this into this hearing.
    What we are talking about is illegal foreign contributions, 
and to my knowledge, we have not had that kind of a problem 
with a lot of the accusations that have been thrown at 
Republican campaigns. We have proceeded entirely consistent 
with previous congressional practice, and I've cited some of 
those with Chairmen Lantos and Dingell when they were chairmen. 
I don't think it is in the interest of the Congress to have 
Members continue to malign the process, as Mr. Waxman does week 
after week and month after month.
    And with that, Mr. Middleton, we appreciate your being 
here, and we stand adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
    [The exhibits referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T3044.060
    
    [GRAPHIC] [TIFF OMITTED] T3044.061
    
    [GRAPHIC] [TIFF OMITTED] T3044.062
    
    [GRAPHIC] [TIFF OMITTED] T3044.063
    
    [GRAPHIC] [TIFF OMITTED] T3044.064
    
    [GRAPHIC] [TIFF OMITTED] T3044.065
    
    [GRAPHIC] [TIFF OMITTED] T3044.066
    
    [GRAPHIC] [TIFF OMITTED] T3044.067
    
    [GRAPHIC] [TIFF OMITTED] T3044.068
    
    [GRAPHIC] [TIFF OMITTED] T3044.069
    
    [GRAPHIC] [TIFF OMITTED] T3044.070
    
    [GRAPHIC] [TIFF OMITTED] T3044.071
    
    [GRAPHIC] [TIFF OMITTED] T3044.072
    
    [GRAPHIC] [TIFF OMITTED] T3044.073
    
    [GRAPHIC] [TIFF OMITTED] T3044.074
    
    [GRAPHIC] [TIFF OMITTED] T3044.075
    
    [GRAPHIC] [TIFF OMITTED] T3044.076
    
    [GRAPHIC] [TIFF OMITTED] T3044.077
    
    [GRAPHIC] [TIFF OMITTED] T3044.078
    
    [GRAPHIC] [TIFF OMITTED] T3044.079
    
    [GRAPHIC] [TIFF OMITTED] T3044.080
    
    [GRAPHIC] [TIFF OMITTED] T3044.081
    
    [GRAPHIC] [TIFF OMITTED] T3044.082
    
    [GRAPHIC] [TIFF OMITTED] T3044.083
    
    [GRAPHIC] [TIFF OMITTED] T3044.084
    
    [GRAPHIC] [TIFF OMITTED] T3044.085
    
    [GRAPHIC] [TIFF OMITTED] T3044.086
    
    [GRAPHIC] [TIFF OMITTED] T3044.087
    
    [GRAPHIC] [TIFF OMITTED] T3044.088
    
    [GRAPHIC] [TIFF OMITTED] T3044.089
    
    [GRAPHIC] [TIFF OMITTED] T3044.090
    
    [GRAPHIC] [TIFF OMITTED] T3044.091
    
    [GRAPHIC] [TIFF OMITTED] T3044.092
    
    [GRAPHIC] [TIFF OMITTED] T3044.093
    
    [GRAPHIC] [TIFF OMITTED] T3044.094
    
    [GRAPHIC] [TIFF OMITTED] T3044.095
    
    [GRAPHIC] [TIFF OMITTED] T3044.096
    
    [GRAPHIC] [TIFF OMITTED] T3044.097
    
    [GRAPHIC] [TIFF OMITTED] T3044.098
    
    [GRAPHIC] [TIFF OMITTED] T3044.099
    
    [GRAPHIC] [TIFF OMITTED] T3044.100
    
    [GRAPHIC] [TIFF OMITTED] T3044.101
    
    [GRAPHIC] [TIFF OMITTED] T3044.102
    
    [GRAPHIC] [TIFF OMITTED] T3044.103
    
    [GRAPHIC] [TIFF OMITTED] T3044.104
    
    [GRAPHIC] [TIFF OMITTED] T3044.105
    
    [GRAPHIC] [TIFF OMITTED] T3044.106
    
    [GRAPHIC] [TIFF OMITTED] T3044.107
    
    [GRAPHIC] [TIFF OMITTED] T3044.108
    
    [GRAPHIC] [TIFF OMITTED] T3044.109
    
    [GRAPHIC] [TIFF OMITTED] T3044.110
    
    [GRAPHIC] [TIFF OMITTED] T3044.111
    
    [GRAPHIC] [TIFF OMITTED] T3044.112
    
    [GRAPHIC] [TIFF OMITTED] T3044.113
    
    [GRAPHIC] [TIFF OMITTED] T3044.114
    
    [GRAPHIC] [TIFF OMITTED] T3044.115
    
    [GRAPHIC] [TIFF OMITTED] T3044.116
    
    [GRAPHIC] [TIFF OMITTED] T3044.117
    
    [GRAPHIC] [TIFF OMITTED] T3044.118
    
    [GRAPHIC] [TIFF OMITTED] T3044.119
    
    [GRAPHIC] [TIFF OMITTED] T3044.120
    
    [GRAPHIC] [TIFF OMITTED] T3044.121
    
    [GRAPHIC] [TIFF OMITTED] T3044.122
    
    [GRAPHIC] [TIFF OMITTED] T3044.123
    
    [GRAPHIC] [TIFF OMITTED] T3044.124
    
    [GRAPHIC] [TIFF OMITTED] T3044.125
    
    [GRAPHIC] [TIFF OMITTED] T3044.126
    
    [GRAPHIC] [TIFF OMITTED] T3044.127
    
    [GRAPHIC] [TIFF OMITTED] T3044.128
    
    [GRAPHIC] [TIFF OMITTED] T3044.129
    
    [GRAPHIC] [TIFF OMITTED] T3044.130
    
    [GRAPHIC] [TIFF OMITTED] T3044.131
    
    [GRAPHIC] [TIFF OMITTED] T3044.132
    
    [GRAPHIC] [TIFF OMITTED] T3044.133
    
    [GRAPHIC] [TIFF OMITTED] T3044.134
    
    [GRAPHIC] [TIFF OMITTED] T3044.135
    
    [GRAPHIC] [TIFF OMITTED] T3044.136
    
    [GRAPHIC] [TIFF OMITTED] T3044.137
    
    [GRAPHIC] [TIFF OMITTED] T3044.138
    
    [GRAPHIC] [TIFF OMITTED] T3044.139
    
    [GRAPHIC] [TIFF OMITTED] T3044.140
    
    [GRAPHIC] [TIFF OMITTED] T3044.141
    
    [GRAPHIC] [TIFF OMITTED] T3044.142
    
    [GRAPHIC] [TIFF OMITTED] T3044.143
    
    [GRAPHIC] [TIFF OMITTED] T3044.144
    
    [GRAPHIC] [TIFF OMITTED] T3044.145
    
    [GRAPHIC] [TIFF OMITTED] T3044.146
    
    [GRAPHIC] [TIFF OMITTED] T3044.147
    
    [GRAPHIC] [TIFF OMITTED] T3044.148
    
    [GRAPHIC] [TIFF OMITTED] T3044.149
    
    [GRAPHIC] [TIFF OMITTED] T3044.150
    
    [GRAPHIC] [TIFF OMITTED] T3044.151
    
    [GRAPHIC] [TIFF OMITTED] T3044.152
    
    [GRAPHIC] [TIFF OMITTED] T3044.153
    
    [GRAPHIC] [TIFF OMITTED] T3044.154
    
    [GRAPHIC] [TIFF OMITTED] T3044.155
    
    [GRAPHIC] [TIFF OMITTED] T3044.156
    
    [GRAPHIC] [TIFF OMITTED] T3044.157
    
    [GRAPHIC] [TIFF OMITTED] T3044.158
    
    [GRAPHIC] [TIFF OMITTED] T3044.159
    
    [GRAPHIC] [TIFF OMITTED] T3044.160
    
    [GRAPHIC] [TIFF OMITTED] T3044.161
    
    [GRAPHIC] [TIFF OMITTED] T3044.162
    
    [GRAPHIC] [TIFF OMITTED] T3044.163
    
    [GRAPHIC] [TIFF OMITTED] T3044.164
    
    [GRAPHIC] [TIFF OMITTED] T3044.165
    
    [GRAPHIC] [TIFF OMITTED] T3044.166
    
    [GRAPHIC] [TIFF OMITTED] T3044.167
    
    [GRAPHIC] [TIFF OMITTED] T3044.168
    
    [GRAPHIC] [TIFF OMITTED] T3044.169
    
    [GRAPHIC] [TIFF OMITTED] T3044.170
    
    [GRAPHIC] [TIFF OMITTED] T3044.171
    
    [GRAPHIC] [TIFF OMITTED] T3044.172
    
    [GRAPHIC] [TIFF OMITTED] T3044.173
    
    [GRAPHIC] [TIFF OMITTED] T3044.174
    
    [GRAPHIC] [TIFF OMITTED] T3044.175
    
    [GRAPHIC] [TIFF OMITTED] T3044.176
    
    [GRAPHIC] [TIFF OMITTED] T3044.177
    
    [GRAPHIC] [TIFF OMITTED] T3044.178
    
    [GRAPHIC] [TIFF OMITTED] T3044.179
    
    [GRAPHIC] [TIFF OMITTED] T3044.180
    
    [GRAPHIC] [TIFF OMITTED] T3044.181
    
    [GRAPHIC] [TIFF OMITTED] T3044.182
    
    [GRAPHIC] [TIFF OMITTED] T3044.183
    
    [GRAPHIC] [TIFF OMITTED] T3044.184
    
    [GRAPHIC] [TIFF OMITTED] T3044.185
    
    [GRAPHIC] [TIFF OMITTED] T3044.186
    
    [GRAPHIC] [TIFF OMITTED] T3044.187
    
    [GRAPHIC] [TIFF OMITTED] T3044.188
    
    [GRAPHIC] [TIFF OMITTED] T3044.189
    
    [GRAPHIC] [TIFF OMITTED] T3044.190
    
    [GRAPHIC] [TIFF OMITTED] T3044.191
    
    [GRAPHIC] [TIFF OMITTED] T3044.192
    
    [GRAPHIC] [TIFF OMITTED] T3044.193
    
    [GRAPHIC] [TIFF OMITTED] T3044.194
    
                                   - 
                                  <ALL>
</pre></body></html>
